         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Could Improve Processes for
       Managing Contractor Systems
       and Reporting Incidents
       Report No. 2007-P-00007

       January 11, 2007
Report Contributors:	            Rudolph M. Brevard
                                 Neven Morcos
                                 William Coker
                                 Warren Brooks




Abbreviations

ASSERT       Automated Security Self Evaluation and Remediation Tracking
CSIRC        Computer Security Incident Response Capability
EPA          U.S. Environmental Protection Agency
EPAAR        Environmental Protection Agency Acquisition Regulation
FISMA        Federal Information Security Management Act
IRM          Information Resource Management
ISO          Information Security Officer
OEI          Office of Environmental Information
OIG          Office of Inspector General
                     U.S. Environmental Protection Agency                                                2007-P-00007

                                                                                                      January 11, 2007

                     Office of Inspector General


                     At a Glance

                                                                           Catalyst for Improving the Environment

Why We Did This Audit           EPA Could Improve Processes for Managing 

We sought to determine          Contractor Systems and Reporting Incidents 

whether the U.S.
Environmental Protection         What We Found
Agency (EPA) defined
security requirements for       Although EPA had defined the specific requirements for contractor systems, EPA
contractor-owned systems        had not established procedures to ensure identification of all contractor systems.
that collect data for EPA.      Furthermore, EPA had not ensured that information security requirements were
We also sought to determine     accessible by the contractors and appropriately maintained. As a result, EPA
whether EPA offices             system inventories may not include all appropriate contractor systems, and its
identified and reported all
                                contractors may not be implementing adequate security safeguards.
computer security-related
incidents to EPA’s Computer
Security Incident Response      Although EPA offices were aware of the Agency’s computer security incident
Capability (CSIRC) staff.       response policy, many offices lacked local reporting procedures, had not fully
                                implemented automated monitoring tools, and did not provide sufficient training on
Background                      local procedures. EPA offices also did not have access to network attack trend
                                information necessary to implement proactive defensive measures. As a result,
EPA uses contractors to         there was no consistency in how, what, and when EPA offices reported computer
collect and process             security incidents. Without all relevant security incident data, EPA may not
information on its behalf.      accurately inform senior Agency officials regarding the performance and security
Annually, the contractors       of the Agency’s network.
review their systems’
compliance with established      What We Recommend
information security
requirements and record the
                                To address weaknesses associated with contractor systems, we recommend that
results in EPA’s security
monitoring database.            EPA assign duties and responsibilities for maintaining and updating information
CSIRC defines the formal        posted on EPA’s Website. We also recommend that EPA update its guidance for
process by which EPA            identifying contractor systems. Further, we recommend that EPA establish formal
responds to computer            procedures to ensure that all responsible program offices update and maintain their
security-related incidents      EPA-specific contract clauses on a regular basis.
such as computer viruses,
unauthorized user activity,     To address the computer security incident reporting weaknesses, we recommend
and serious software            that EPA update the Agency’s computer security incident guide to cover reporting
vulnerabilities.                instructions for all locations, establish a target date for when it will configure the
                                Agency’s anti-virus software to utilize the central reporting feature, train
For further information,        Information Security Officers on new procedures, and provide Information Security
contact our Office of           Officers with computer security incident reports.
Congressional and Public
Liaison at (202) 566-2391.
                                The Agency generally agreed with our recommendations. In many cases,
To view the full report,        management provided milestone dates and planned actions to address the report’s
click on the following link:
                                findings. The Agency’s complete response is included at Appendices A and B.
www.epa.gov/oig/reports/2007/
20070111-2007-P-00007.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL


                                         January 11, 2007

MEMORANDUM

SUBJECT:               EPA Could Improve Processes for Managing
                       Contractor Systems and Reporting Incidents
                       Report No. 2007-P-00007

TO:                    Molly A. O’Neill
                       Assistant Administrator
                       Office of Environmental Information

                       Luis Luna
                       Assistant Administrator
                       Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $466,534.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rudolph M. Brevard,
Director for Information Resources Management Assessments, at (202) 566-0893 or
brevard.rudy@epa.gov.

                                              Sincerely,



                                              Bill A. Roderick
                                              Acting Inspector General
                               EPA Could Improve Processes for Managing 

                               Contractor Systems and Reporting Incidents 





                                Table of Contents 


Chapters
 1    Introduction ..........................................................................................................       1     


              Purpose ..........................................................................................................    1         

              Background ...................................................................................................        1         

              Scope and Methodology ................................................................................                2         


 2    EPA Could Improve Processes for Managing Contractor Systems .................                                                 5


              Additional Guidance Needed for Identifying Contractor Systems...................                                      5

              Procedures Needed for Updating EPA-Specific Contract Clauses ................                                         5

              Processes Needed for Maintaining IRM Requirements..................................                                   6

              Recommendations .........................................................................................             6         

              Agency Comments and OIG Evaluation.........................................................                           6


 3    EPA Could Improve Its Incident Reporting Processes .....................................                                      7     


              EPA Locations Need Local Incident Reporting Procedures ...........................                                    7

              EPA Had Not Fully Implemented Its Centralized Monitoring Software...........                                          8

              EPA Employees Need Training on Local Reporting of Incidents ...................                                       8

              Incident Trend Reports Not Provided to Information Security Officers ..........                                       9

              Recommendations ........................................................................................              9

              Agency Comments and OIG Evaluation.........................................................                           9


 Status of Recommendations and Potential Monetary Benefits ................................                                        11 




Appendices
 A    Office of Environmental Information Response to Draft Report .....................                                           12

 B    Office of Administration and Resources Management
      Response to Draft Report ....................................................................................                16

 C    Distribution ...........................................................................................................     17
                                             Chapter 1
                                              Introduction

Purpose
                    Our overall objective was to evaluate the implementation and effectiveness of the
                    U.S. Environmental Protection Agency’s (EPA’s) information security practices.
                    We reviewed EPA’s processes for managing contractor systems and handling
                    computer security incidents. Specifically, we sought to identify to what extent
                    EPA has defined security requirements for contractor-owned systems that collect
                    data on EPA’s behalf.1 We also sought to determine whether EPA program and
                    regional offices identified and reported all computer security-related incidents to
                    EPA’s Computer Security Incident Response Capability (CSIRC) staff.

Background
                    We performed this audit pursuant to the Federal Information Security
                    Management Act (FISMA) of 2002. FISMA establishes a framework for
                    ensuring the effectiveness of EPA’s information security programs. FISMA
                    requires EPA to implement policies and procedures commensurate with the risk
                    and magnitude of harm resulting from the malicious or unintentional impairment
                    of Agency information assets.

                    Contractor Systems

                    EPA uses a variety of contractor support services to operate its information
                    technology resources. This includes contractors who operate EPA-owned systems
                    that reside in Government facilities. This also includes contractors who own and
                    operate systems that collect and process information on EPA’s behalf. To
                    monitor the contractors’ systems’ compliance with established information
                    security requirements, EPA requires its contractors to complete an annual self-
                    assessment for their systems. The self-assessment is intended to identify system
                    weaknesses and create plans to remediate them. This self-assessment is consistent
                    with guidance published by the National Institute of Standards and Technology.

                    EPA’s Office of Environmental Information (OEI) is responsible for establishing
                    the framework in which EPA offices oversee the annual self-assessment. EPA
                    offices are responsible for ensuring that all of their contractor systems are
                    identified and the self-assessments are completed. EPA offices record the self-
                    assessment information in a central database, called the Automated Security Self
                    Evaluation and Remediation Tracking (ASSERT) database. EPA uses ASSERT

1
    Throughout this report, we refer to contractor-owned systems with EPA data as “contractor systems.”


                                                          1

         to report the status of its information security program to the Office of
         Management and Budget (OMB). Therefore, it is essential that all contractor
         systems are identified and results recorded in ASSERT.

         The Office of Acquisition Management is responsible for overseeing EPA’s
         contracting processes. This includes establishing a process to ensure that EPA
         Acquisition Regulation (EPAAR) clauses are updated. EPA offices are
         responsible for updating their offices’ EPAAR clause. EPA offices are also
         responsible for ensuring information referenced in EPAAR clauses is current.
         OEI informs contractors about EPA-specific information system security
         requirements through an EPAAR clause. The EPAAR directs contractors to an
         EPA Website that contains applicable Agency security requirements. As such, it
         is vital that the information be accurate and accessible so EPA contractors can
         implement the necessary controls to protect the data processed on EPA’s behalf.

         Incident Reporting

         EPA’s CSIRC staff manages the computer security incident reporting process.
         CSIRC defines the formal process by which EPA responds to computer security-
         related incidents such as computer viruses, unauthorized user activity, and serious
         software vulnerabilities. CSIRC facilitates the centralized reporting of incidents
         and provides support to help EPA Information Security Officers (ISOs). OMB
         and the National Institute of Standards and Technology provide guidelines for the
         sharing and timely reporting of computer security incidents. Other Federal
         guidance requires organizations to provide personnel with initial and annual
         refresher training on computer security. This training includes training personnel
         on computer security incident handling.

         EPA developed the following policies to guide the Agency’s computer security
         incident reporting processes:

            •	 EPA Order 2195.1 A4 - Directs that the ISO is the primary point of
               contact for all security incidents. In addition, it directs the ISO to
               document and retain records of computer security incidents.

            •	 EPA Directive 200.06 - Provides the framework for EPA’s computer
               security incident reporting program. It requires the ISO to develop,
               maintain, and publish local computer security incidents procedures.

            •	 The ISO Handbook - Directs EPA personnel to follow local procedures
               to report computer security incidents.

Scope and Methodology
         We performed our audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. We conducted field work


                                          2

from March 2006 until June 2006. We conducted site visits in EPA Regions 1, 2,
and 3. We also conducted teleconferences with EPA Regions 5 and 8 and held
meetings with representatives from EPA’s Office of Water and Office of Air and
Radiation, located in Washington, DC.

We conducted a survey to obtain preliminary information on program and
regional offices’ processes regarding contractor systems and computer security
incident reporting. To obtain an understanding of EPA’s management control
processes for contractor systems and computer security incident reporting, we
collected documentation, interviewed personnel, and reviewed EPA’s
implementation of management controls over these two areas. EPA has not
conducted management reviews of its processes to identify contractor systems.
EPA had conducted a review of its incident handling processes and we collected
and analyzed management’s evaluation of its processes. We collected
information on the number of contractor systems, establishment of incident
handling procedures, and the number of incidents reported to the Agency’s central
incident collection center.

We spoke with representatives from OEI, responsible for overseeing the Agency’s
information security processes, and EPA’s Office of Acquisition Management
within the Office of Administration and Resources Management, responsible for
overseeing the Agency’s acquisition processes. We also spoke with EPA
contractors and employees responsible for monitoring EPA’s contractor systems
and following EPA’s computer security incident reporting policies and
procedures.

We conducted a survey with all EPA offices and did the following analyses:

   •	 To identify contractor systems - We developed a definition of contractor
      systems with the assistance of OEI. The definition contained elements
      that described contractor-owned systems, located outside of a Government
      facility, used to collect information on EPA’s behalf. We collected
      information regarding whether the location categorized the sensitivity of
      the data. We collected and reviewed contractor oversight policies and
      procedures. We conducted followup interviews with respective offices
      and research within EPA’s intranet to validate the survey results.

   •	 To select locations to visit regarding computer security incidents -
      Each location provided us the number of computer security incidents that
      occurred from September 1, 2005, through February 14, 2006. We
      compared the results to a CSIRC report that identified the number of
      computer security incidents each location reported to CSIRC for the same
      period. We used the information to select a judgmental sample of 14
      locations. The sample included locations whose results matched the
      CSIRC report and those that did not. We conducted site visits and
      telephone conferences with the selected locations. We met with the site’s



                                3

       primary ISO, helpdesk personnel, network managers, and EPA employees
       and contractors.

   •	 To determine whether a location complied with EPA’s incident
      reporting procedures - We considered the site compliant with EPA’s
      policy if the location formally documented the procedures in either a
      policy document or the location’s security plan.

There were no significant audits or recommendations to follow up on during this
audit.




                                4

                                 Chapter 2
      EPA Could Improve Processes for Managing
                 Contractor Systems

          EPA could improve its practices for managing contractor compliance with Federal
          and EPA system security requirements. EPA established the ASSERT database to
          track EPA systems, their security weaknesses, and the status of remediation plans.
          However, EPA did not define how EPA offices should identify contractor systems
          or ensure these systems’ vulnerabilities were consistently tracked through
          ASSERT. In addition, EPA had not established processes for maintaining its
          EPA-specific contract clauses and Information Resources Management (IRM)
          requirements. As a result, EPA had not identified all of its contractor systems.
          Additionally, EPA has no assurance that its contractors identified their systems’
          vulnerabilities and implemented appropriate security controls, or that they were
          promptly informed of their contractual obligations when EPA-specific
          information security requirements changed.

Additional Guidance Needed for Identifying Contractor Systems
          EPA’s method for identifying contractor systems does not consider the type and
          sensitivity of the data needing protection. Instead, EPA’s current guidance for
          identifying contractor systems only considers whether a contractor system is
          co-located at an EPA facility or connected to EPA’s network infrastructure. Since
          some contractor systems do not reside at an EPA location or connect to EPA’s
          network, offices did not identify these systems for routine assessment of security
          controls. As a result, EPA offices do not know whether the contractors are
          knowledgeable of Agency-specific information security requirements or whether
          the contractor applied the security controls necessary to protect the data it collects
          on EPA’s behalf.

          We developed a “limited” definition of contractor systems that contained EPA
          data. We included this definition in a survey sent to all EPA offices. All EPA
          office responded to our survey. The results identified four additional contractor
          systems that were not included in ASSERT. We provided the results to OEI and
          the office took immediate action to recognize the systems in the Agency’s system
          inventory.

Procedures Needed for Updating EPA-Specific Contract Clauses
          The Office of Acquisition Management (OAM) had not established formal
          procedures to ensure responsible EPA offices regularly review and update their
          EPA-specific contract clauses (EPAAR clause). Instead, OAM uses an informal


                                            5

         process to notify offices when to update their clause. The informal approach
         creates a security risk because contractors may not receive timely guidance and
         instructions about new security requirements. For instance, we discovered the
         existing EPAAR clause on information security directed contractors to an
         inoperable EPA Website. As a result, contractors did not have access to the latest
         guidance for system security requirements. Upon bringing this weakness to the
         Agency’s attention, EPA took immediate action to activate the Website.

Processes Needed for Maintaining IRM Requirements
         Although OEI chartered a workgroup to maintain IRM policies, OEI has not
         formally assigned duties and responsibilities for maintaining the policy guidance.
         Further, OEI has not developed and implemented a process to ensure that IRM
         policy posted for contractor use is current, accurate, and complete. Without up-
         to-date policy, contractors cannot adhere to the latest security requirements.
         While OEI has made progress in implementing processes to manage the IRM
         Website content, OEI personnel agreed that further progress is needed to fulfill its
         responsibilities.

Recommendations
         We recommend that the Assistant Administrator for Environmental Information:

          2-1 	 Develop and implement guidance that EPA offices can use to identify
                contractor systems that contain EPA data.

          2-2 	 Assign duties and responsibilities to internal offices for maintaining the
                IRM requirements posted on the EPA Website available to contractors.

         We recommend that the Assistant Administrator for Administration and
         Resources Management, through its Office of Acquisition Management:

          2-3 	 Establish formal procedures to ensure all responsible program offices
                update and maintain applicable EPA-specific contract clauses on a regular
                basis.

Agency Comments and OIG Evaluation

         The Agency concurred with the findings and provided descriptions of planned
         actions, including milestone dates, for addressing the recommendations.




                                          6

                                 Chapter 3
 EPA Could Improve Its Incident Reporting Processes

          Although EPA locations were aware of the Agency’s computer security incident
          reporting process, not all locations reported computer security incidents to the
          Agency’s CSIRC staff in a timely manner. This occurred because:

             •	 EPA offices lacked local procedures for reporting incidents,
             •	 EPA had not fully implemented automated tools to monitor Agency
                network resources for security incidents,
             •	 EPA did not provide sufficient training to its employees on their
                responsibilities and local procedures, and
             •	 EPA did not share information on network attack trends.

          As a result, EPA offices are not consistent in what, when, and how they report
          security incidents to CSIRC. EPA needs to consider all relevant security incident
          data to assess vulnerabilities, identify attack trends, and contain security threats.
          Without all relevant security incident data, CSIRC personnel cannot promptly
          respond to and contain security threats before they potentially affect wider
          portions of the Agency’s network.

EPA Locations Need Local Incident Reporting Procedures

          Although required by EPA Directive 200.06, Computer Security Incident
          Response, only 29 percent (4 of 14) of the sampled locations developed local
          incident handling procedures. Our fieldwork identified several weaknesses that
          contribute to sites inconsistently reporting security incidents within their locations
          and subsequently to the CSIRC. For example:

             •	 Although some sites established informal procedures for reporting
                incidents, we found that the sites did not always follow these processes
                and did not keep records of incidents.

             •	 Several sites did not create local procedures because EPA’s policy did not
                provide enough guidance to assist them in developing procedures. The
                sites also indicated that they needed additional assistance from the Agency
                to improve their processes.
             •	 One office with eight geographically dispersed offices under its purview
                did not have standardized procedures to identify and report computer
                security incidents.
             •	 Two offices indicated that users often contacted the local system
                administrator or ISO directly for faster assistance. In doing so, these


                                            7

                 offices bypassed the established call centers responsible for receiving
                 reports about potential computer problems. We found that when the call
                 center is by-passed, the ISO might not contact the call center to ensure a
                 record was kept of the incident.

          Without local procedures for reporting computer security incidents, CSIRC and
          EPA may not have all the information necessary to adequately protect information
          assets and respond to actual and potential incidents.

EPA Had Not Fully Implemented Its Centralized Monitoring Software
          EPA’s Office of Technology Operations and Planning specified that all Agency
          locations must configure their anti-virus software to utilize the centralized
          monitoring feature. During our fieldwork, several locations had not yet
          configured their anti-virus software to use the feature. The centralized monitoring
          feature allows all recognized instances of computer security attacks to be reported
          and collected at one location for analysis. However, EPA’s CSIRC does not have
          the capability to determine which locations have properly configured their
          software for centralized monitoring.

          Further, EPA did not maximize the use of its centralized monitoring software
          because it did not establish a deadline for locations to upgrade to the latest version
          of anti-virus software. EPA approved several versions of the anti-virus software
          for use within the Agency. By utilizing the latest version, the CSIRC would have
          more readily available information about the different types of computer attacks
          across the Agency. EPA allows each location to implement the software upgrade
          because each location maintains its own desktop support. However, EPA does
          not monitor how quickly the software upgrade occurs. The current situation
          compromises the effectiveness of EPA’s computer security incident capability, as
          well as the Agency’s ability to control the availability and integrity of its network.

EPA Employees Need Training on Local Reporting of Incidents
          Most locations rely on the Agency’s annual security awareness training to inform
          employees about reporting computer security incidents. Our review disclosed that
          EPA’s annual security awareness training lacked specific local training
          procedures. While the training provided general information regarding how to
          recognize a computer security attack, the training did not provide information on
          how and where to report these security incidents and what information should be
          reported. Additionally, the training was inconsistent about whom an employee
          should contact. For instance, one section of the training program informs the
          employee to report threats to the immediate supervisor; yet, in another section, the
          training instructs the employee to notify local computer security personnel.
          Subsequent to audit fieldwork, EPA implemented new annual security awareness
          training. However, the training is not specific enough to prescribe how computer
          security incident reporting should take place locally.


                                            8

Incident Trend Reports Not Provided to Information Security Officers
          Although CSIRC distributes weekly management and quarterly trend analysis
          reports to EPA’s Office of Technology Operations and Planning, CSIRC does not
          share this information with the local ISOs. The reports reflect all computer
          security activity across the EPA network. During fieldwork, several ISOs
          indicated that these reports would assist them in proactively monitoring their
          networks and implementing risk mitigation practices. Further, sharing
          information with all individuals involved with protecting network resources
          strengthens EPA’s proactive and agile computer security response capability.
          With trend information, network managers can implement security measures that
          could ultimately reduce the number of successful attacks on EPA’s network.

Recommendations
         We recommend that the Assistant Administrator for Environmental Information,
         through its Office of Technology Operations and Planning:

          3-1 	 Collect and analyze the Agency’s local computer security incident reporting
                procedures to ensure compliance with established Agency policies. If
                necessary, update the CSIRC guidance accordingly.

          3-2 	 Establish a target date when all EPA locations will implement the latest anti
                virus software and configure the software to use centralized monitoring.

          3-3 	 Develop and implement a strategy to train ISOs on any updates to the
                CSIRC guide.

          3-4 	 Provide local ISOs and responsible information technology personnel with
                trend analysis reports on computer security incidents.

Agency Comments and OIG Evaluation
          EPA generally agreed with the report’s findings. OEI disagreed with our
          recommendation to update the CSIRC guidance because management felt the
          guide provides detailed information on proper reporting, prioritization, and
          escalation of security incidents. Although the CSIRC guide provides detailed
          information, the guide does not provide the specificity needed to address local
          operating needs. Given the high number of locations without local computer
          security incident reporting procedures, EPA should conduct an analysis of the
          Agency’s local incident reporting practices to identify instances where the
          Agency could improve its incident reporting processes and, if necessary, update
          the CSIRC guidance accordingly. We modified the recommendation accordingly.




                                            9

OEI indicated that it could not corroborate evidence that the ISO community lack
an understanding of the Agency’s incident reporting policies. Although EPA
locations were aware of the Agency’s incident reporting policies, our site visits
and interviews determined that many of the locations did not institute
management control processes to enforce the Agency’s policies. As such, several
weaknesses existed that contributed to sites inconsistently reporting security
incidents within their locations and subsequently to the CSIRC. OEI also
indicated the report misstated the CSIRC’s responsibilities for deploying and
following up on the anti-virus software implementation. We modified the report
to address the Agency’s concerns.




                                10

                                  Status of Recommendations and
                                    Potential Monetary Benefits
                                                                                                                                   POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion    Claimed    Agreed To
    No.      No.                          Subject                            Status1        Action Official             Date       Amount      Amount

    2-1       6     Develop and implement guidance that EPA offices            O       Assistant Administrator for    9/18/08         0
                    can use to identify appropriate contractor systems                 Environmental Information
                    that contain EPA data.

    2-2       6     Assign duties and responsibilities to internal offices     O       Assistant Administrator for      TBD           0
                    for maintaining the IRM requirements posted on the                 Environmental Information
                    EPA Website available to contractors.
    2-3       6     Establish formal procedures to ensure all                  O       Assistant Administrator for   3rd Quarter      0
                    responsible program offices update and maintain                       Administration and         Fiscal Year
                    applicable EPA-specific contract clauses on a                             Resources                  2007
                    regular basis.                                                       Management/Office of
                                                                                        Acquisition Management

    3-1       9     Collect and analyze the Agency’s local computer            U       Assistant Administrator for                    0
                    security incident reporting procedures to ensure                   Environmental Information/
                    compliance with established Agency policies. If                      Office of Technology
                    necessary, update the CSIRC guidance                                Operations and Planning
                    accordingly.

    3-2       9     Establish a target date when all EPA locations will        O       Assistant Administrator for    2/27/07         0
                    implement the latest anti-virus software and                       Environmental Information/
                    configure the software to use centralized                            Office of Technology
                    monitoring.                                                         Operations and Planning

    3-3       9     Develop and implement a strategy to train ISOs on          O       Assistant Administrator for      TBD           0
                    any updates to the CSIRC guide.                                    Environmental Information
                                                                                         Office of Technology
                                                                                       Operations and Planning

    3-4       9     Provide local ISOs and responsible information             O       Assistant Administrator for      TBD           0
                    technology personnel with trend analysis reports on                Environmental Information/
                    computer security incidents.                                         Office of Technology
                                                                                        Operations and Planning

1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   11

                                                                                  Appendix A

                Office of Environmental Information 

                     Response to Draft Report 


                                      November 30, 2006

MEMORANDUM

SUBJECT:      OEI Response to the Draft Audit Report: EPA Could Improve Processes
              for Managing Contractor Systems and Reporting Incidents, Assignment
              No. 2006-000068

FROM:         Linda A. Travers
              Acting Assistant Administrator and Chief Information Officer

TO:           Rudolph M. Brevard
              Director, Information Technology Audits
              Office of Inspector General

        Thank you for the opportunity to respond to the Draft Audit Report: EPA Could Improve
Processes for Managing Contractor Systems and Reporting Incidents. We appreciate your efforts
to hold informational meetings to ensure clarity of your findings and allow for early review of
your recommendations.

       The attachment provides corrections to factual errors noted in the Audit Findings and
OEI responses to the specific recommendations for the Office of Technology Operations and
Planning (OTOP). Please contact Marian Cody, Director of the Technology and Information
Security Staff, at 202-566-0302 if you have any questions or need additional information

cc:    	Myra Galbreath
       Marian Cody
       Karen Maher

Attachment




                                               12

                       OEI Comments on Draft Audit Report:
  EPA Could Improve Processes for Managing Contractor Systems and Reporting Incidents
                            Assignment No. 2006-000068

       OEI noted factual errors in the Audit Findings. The factual errors involve the validity of
the Audit’s findings that EPA offices are unfamiliar with the Agency’s Computer Security
Incident Response Capability (CSIRC) and confusion about CSIRC’s roles and responsibilities.

         Pertaining to the first issue, OEI did not find corroborating evidence indicating a lack of
understanding in the EPA general community about computer security incident response
procedures in either the Office of Inspector General’s (OIG) February data collection or in the
OIG’s detailed back-up data about incidents. In the February data collection, most respondents
answered the incident response questions as they applied to any contractor sites identified in the
first half of the questionnaire, not as they pertained to their own organization. Nor could OEI
discern any evidence of a lack of understanding about incident response procedures in the OIG’s
detailed back-up data about incidents. While OEI accepts that there probably can never be
enough training and communication, we do not accept that the data collected offers clear
evidence that EPA lacks policies and procedures for reporting incidents or that EPA offices do
not know how, what, or when security incident information should be reported.

        Our second area of concern is the OIG’s confusion about CSIRC’s roles and
responsibilities. The Audit Report assigns CSIRC roles and responsibilities for anti-virus. The
Agency’s Anti-Virus program is managed by the Network Infrastructure Services (NIS) and it is
this organization which has responsibility for deploying and following up on implementation of
anti-virus software.




                                                 13

                       OEI Comments on Draft Audit Report:
  EPA Could Improve Processes for Managing Contractor Systems and Reporting Incidents
                            Assignment No. 2006-000068

REC.   RECOMMENDATION          ACCEPT/    ACTION          COMMENT
NO.                            DISAGREE   PLAN
2-1    Develop and             Accept     Update of
       implement guidance                 the
       that EPA offices can               Information
       use to identify                    Security
       appropriate                        Manual.
       contractor systems                 Completion
       that contain EPA                   date:
       data.                              9/18/2008
                                          ASSERT
                                          Task ID
                                          105647
2-2    Assign duties and       Accept     To Be
       responsibilities to                Determined
       internal offices for               (TBD)
       maintaining the
       IRM requirements
       posted on the EPA
       Website available to
       contractors
3-1    Update the CSIRC        Disagree                   OEI has instructions in the current “Agency Guidance to Incident
       guide to include                                   Handling and Information Security Officer Handbook”.
       specific instructions                              http://intranet.epa.gov/otop/security/CSIRC/CSIRC_Handbook.doc
       for reporting
       computer security                                  The “Agency Guidance to Incident Handling and Information
       incidents at EPA                                   Security Officer Handbook” provides detailed information for
       locations. The                                     Information Security Officers (ISOs) on the proper reporting,
       updated guide                                      prioritization, and escalation of security incidents. The handbook
       should include                                     provides specific instructions on incident types, incident reporting,
       specific instructions                              information flows, and specific actions to take during an incident
       for prioritizing                                   that EPA locations could use to train employees
       security incidents
       and escalating the
       notification of
       security incidents
       within a location.
       The guide should
       also include
       instructions that
       EPA locations could
       use to train
       employees on the
       local procedures for
       reporting computer
       security incidents.
3-2    Establish a target      Accept     Completion
       date when all EPA                  date:
       locations will                     February
       implement the latest               27, 2007


                                                        14

REC.   RECOMMENDATION         ACCEPT/    ACTION     COMMENT
NO.                           DISAGREE   PLAN
       anti-virus software
       and configure the
       software to use
       centralized
       monitoring.
3-3    Develop and            Accept     TBD        While OTOP accepts this recommendation because training is
       implement a                                  always a good idea, CSIRC has provided training for the past three
       strategy to train                            years to EPA ISOs through monthly teleconferences and at the
       ISOs on the updated                          yearly IT Security and Operations Conference. OTOP, however,
       CSIRC guide.                                 will enhance its training strategy to include:
                                                      - training at the annual Office of Environmental Information
                                                          (OEI) National Symposium and IT Security and Operations
                                                          Conference
                                                      - daily interaction with ISO’s on specific incidents
                                                      - updating EPA's annual Information Security Awareness
                                                          training to focus on the roles and responsibilities of all
                                                          employees pertaining to incident reporting, escalation and
                                                          prioritization.
3-4    Provide local ISOs     Accept     TBD        CSIRC creates quarterly trend reports for EPA Management.
       and responsible                              Historically, these reports were provided to Technical Information
       information                                  Security Staff (TISS) for review and distribution. Effective
       technology                                   immediately, these reports will be provided to the ISO community
       personnel with trend                         following National Computer Center (NCC) Management review.
       analysis reports on
       computer security
       incidents.




                                                  15

                                                                                    Appendix B

 Office of Administration and Resources Management
              Response to Draft Report

                                       December 15, 2006

MEMORANDUM

SUBJECT:	 Draft Report, EPA Could Improve Processes for Managing Contractor Systems
          and Reporting Incidents – Assignment No. 2006-000068

FROM: 	        Luis A. Luna, Assistant Administrator
               Office of Administration and Resources Management

TO: 	          Rudolph M. Brevard, Director
               Information Resources Management Assessments


        This is in response to the subject draft report dated October 31, 2006. Specifically, this
memorandum addresses recommendation 2-3 of the report which states that the Office of
Acquisition Management (OAM) “establish formal procedures to ensure all responsible program
offices update and maintain applicable EPA-specific contract clauses on a regular basis.”

        OAM will periodically request that program offices review EPA-specific contract clauses
for any needed updates and/or maintenance. This will be done both in writing (through OAM
News Flash Notices), and verbally (through the Contracts Customer Relations Counsel and other
forums with our customers). The Service Center Manager of the Acquisition Policy and
Training Service Center within OAM, will be established as the point of contact for the receipt of
this information from program offices. This initiative will be implemented beginning in the third
quarter of FY 2007.

         If your staff has any questions, please contact Larry Wyborski at (202) 564-4369. If I can
assist in any way, please call me on 564-4600.




                                                16

                                                                                Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator for Environmental Information
Assistant Administrator for Administration and Resources Management
Director, Technology and Information Security Staff
Director, Acquisition Management
Audit Followup Coordinator, Office of Environmental Information
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Technology and Information Security Staff
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                           17

